Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  POSTMARKETING STUDIES OF
     PRESCRIPTION DRUGS
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Sefices, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION AND INSPECI’IONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia regional office of OEI, under the direction of
Robert A Vito, Regional Inspector General. Project staffi

 REGIONAL                                      HEADQUARTERS

 Isabelle Buonocore, Project Leader            Mary Beth Clarke, Program Specialist

 Nancy J. Molyneaux, Program Analyst

 WonJong Oh, Intern

 Emily Tseng, Intern


For additional copies of this report, please call the Philadelphia office (215-596-0606).

Department of Health and Human Services
        OFFICE OF

   INSPECTOR GENERAL





   POSTMARKETING STUDIES OF

      PRESCRIPTION DRUGS





               # SERVICE$
          J+            %’

                         ‘t

          w                    JUNE  GIBBS BROWN
         $
         <                     Inspector General
         2
         % #

          ‘%
           ++,                          Mi4Y 1996
            %’dga
             >                        0EI-03-94-O0760
               EXECUTIVE                         SUMMARY


PURPOSE

Our report   describes the effectiveness of the Food and Drug Administration’s   (FDA)
monitoring   of postmarketing   studies for prescription drugs.

BACKGROUND

Postmarketing  studies--investigational drug studies conducted after FDA marketing
approval--can have an impact on how drugs are prescribed and used. A company’s
agreement to conduct an FDA-requested       postmarketing  study is called a
postmarketing  or phase iv commitment.

Responsibility for monitoring phase iv commitments lies with the Offices of Drug
Evaluation in the Center for Drug Evaluation and Research (CDER).        A division in
the CDER’S Office of Management     was assigned the responsibility of identi&ing
commitments for all new drugs and tracking their status. The tracking results are
published for CDER’S internal use as the Phase IV Postapproval Research List.

Our report provides FDA management     with an overview of monitoring     procedures
and outcomes, focusing on new molecular entities.

FINDINGS

%    number of new dregs with postmarking commitmerm k increasing. In the 1970s,
the highest annual percentage of such dregs was 33 percent compared to a high of 70
percent in the XWOs.

l%ere are no formal standurds and procedures for monitotig    or for establishing whether a
postmurkdng commitment k nu%.

W%ik the Phase IV PostapprovalResearch List contains important and usefid
informutio~ it is not a@@ flective management tool in iti cument form Its fonnut
preclidx summarization of records, it k not u.ted regukdy, and s&nificant data
elementi are not captured cons&mtly.

%   FDA k taking some steps to improve the tracking of phase iv comrnitmeruk

RECOMMENDATIONS

We recognize there are limited resources and FDA’s priority is the review of
premarketing studies. This is especially true with the shorter time frames in which
FDA reviews premarketing    studies under the Prescription Drug User Fee Act of 1992.



                                             i
We also recognize FDA is interested in improving data management             for
postmarketing  commitments  and is taking steps in that direction.

As our report indicates, FDA is requesting postmarketing     studies for an increasing
number of drugs. We believe it is reasonable to expect FDA to determine whether or
not submitted studies fulfill the commitments.    Until commitments    are more
systematically monitored and brought to closure, FDA is not availing itself of a
management     tool with which to assess the appropriateness  of its requests and plan for
the future.

We recommend     that FDA:

  F�   establish stanch-.., prvcedums, or guidelines for canying out monitoring and
       tracking objecthm; and

  ��   establkh accountability for monitoring tracking and btiging comrnitmen@ to
       cihure.

Below are some ideas for FDA to consider         in order to streamline   data management:

  .�   Assign authority to specific personnel for carrying out management’s     objectives.
       Establish a coordinator with authority to (1) represent all offices involved in
       monitoring, tracking, and bringing commitments to closure; and (2) ensure that
       there is a quality control system for the commitments   database.

  .�   Reduce the number of documents that have to be researched in order to
       identi~ the status of commitments; and use standard notations on these
       documents to signify how each document affects the status of the commitment.

  .�   Establish descriptive   categories   for (1) types of studies requested     and (2) status
       of commitments.

  .�   Put the database of postmarketing   commitments on-line in the review divisions
       and allow authorized individuals to update records as soon as an action occurs
       or a determination  is made.

FDA COMMENTS

The FDA agrees with this report’s findings and recommendations.    A draft directive
that establishes procedures and provides guidance is undergoing review within CDER
is expected to be finalized by the end of June 1996. (Appendix C contains FDA’s
comments in full.)




                                                11
                             TABLE                    OF CONTENTS



EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


     �         Quantity       and status ofpostmarketing                 commitments           . . . . . . . . . . . . . . . . . 5


     �         Monitoring         and bringing commitments                 to closure       . . . . . . . . . . . . . . . . . . . 7


     c         The Phase IVList               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


     �         Improvements            to the tracking        system      . . . . . . . . . .. . .. . . . . . . . . . . . ..        10

RECOMMENDATIONS                           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


ENDNOTES                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDICES


k.       Categories      for the status ofcommitments                   . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1


B: Number             of commitments          in each status as of 1995               . . . . . . . . . . . . . . . . . . . . B-1


C        Comments        from the Food and Drug Administration                          . . . . . . . . . . . . . . . . . . . C-1

                            INTRODUCTION


PURPOSE

This report describes the effectiveness of the Food and Drug Administration’s      (FDA)
monitoring of postmarketing   studies for prescription drugs.

BACKGROUND

Definition   of Postmarketirw   Studies

Before drug companies can market new drugs in the United States, they must apply to
FDA and receive approval.     Normally, drug manufacturers  test new drugs in three
phases of studies prior to applying for marketing approval.  The premarketing   studies
determine the drug’s safety and efficacy under controlled conditions.

Prior to or after granting marketing approval, FDA may ask the manufacturer        to
conduct a “phase iv” or “postmarketing” study--synonymous    terms in this report. This
request is made if FDA concludes that additional information, while not essential for
approval, will improve the prescribing and use of the drug. Postmarketing     studies may
confirm existing data, raise questions, or provide new data. Drug companies may
initiate postmarketing   studies without an FDA request, but in this report we are only
addressing studies requested by FDA.

As of the early 1990s, new regulations at 21 CFR 314.500, make it possible for FDA
to grant marketing approval under an accelerated review process for a small number
of drugs that treat serious and life-threatening illnesses.l When FDA uses the
accelerated review process, the drug is available sooner but with less immediate
clinical and safety information than the normal review process requires.     When using
the accelerated process, FDA can require postmarketing       studies and can withdraw
marketing approval if the studies are not completed with due diligence.

For most new drugs, FDA does not have the same kind of legal authority to require
completion of postmarketing    studies, Nevertheless, there is a tradition of FDA
requesting studies and companies agreeing to conduct them. A company’s agreement
to conduct a study is called a phase iv or postmarketing   commitment.     In this report
we use the term commitment when discussing agreed-upon phase iv studies for drugs
approved under the normal and accelerated processes.

Who Does the Monitoring

Monitoring includes following-up on a phase iv commitment,      reviewing any data the
company submits, and tracking the status of the commitment      until closure is reached.2




                                             1

Primary responsibility for monitoring commitments lies with the reviewers handling a
drug company’s application for marketing approval.    The reviewers are located in
divisions of the Offices of Drug Evaluation in FDA’s Center for Drug Evaluation and
Research.    (Hereinafter the name of the Center is abbreviated as the Center for
Drugs). In the course of analyzing a drug company’s application, a reviewer may
request that the company conduct one or more postmarketing      studies. If the drug
under review is a not a new molecular entity,3 the request is cleared by the review
division director. Requests relative to a new molecular entity are cleared at the level
of office director. The company also enters into discussions about the request before
making a commitment to conduct any studies.

The FDA usually enumerates a company’s postmarketing      commitments in a letter to
the company. Then, as the company submits data relative to its commitments,
reviewers (ideally the same ones that requested the phase iv study) determine if any
action is necessary.  The kind of action depends on the submission and might include
a labeling change.

While reviewers keep track of the phase iv commitments for drugs they reviewed, a
division in the Office of Management,     Center for Drugs, was given the responsibility
for tracking the status of commitments for all drugs approved in the Center. This is
the Division of Drug Information Resources (DDIR).        Periodically, DDIR staff
research documents in the review divisions to identi@ commitments       and their status.
Data extracted from the documents are organized in a word-processing        file, and the
file is published for the Center’s internal use under the title, Phase IV Pmtappmval
Research list (hereinafter abbreviated as Phase IV List).

What the Phase IV List Contains

The Phase IV List contains a record for each drug (both prescription and over-the-
counter) that has postmarketing   commitments.     Records are only of commitments
made on original drug applications.   There is no Centerwide tracking of commitments
for supplementary  applications or for postmarketing    studies that were not requested
by FDA.

Each drug record briefly describes the commitments and their status as of the last data
collection period, and cites the documentary sources of that information.     Sources used
to identify the commitments    are generally one of two types of form letters review
divisions send to drug companies, but other documents are also used. The status is
derived from drug company correspondence,       supplements, progress reports, periodic
reports, annual reports, and from FDA correspondence,       reviewer reports, meeting
minutes, and telephone or electronic contact reports.

There may be any number of commitments per drug, and they are listed together in
the drug’s record. When all the commitments for a particular drug are met, the
record for that drug moves from the Phase IV List’s Pending Commitments   List to its
Commitments     Met or Released List.


                                             2

In 1988, DDIRconducted      the first andonly internal analysis ofinforrnation    in the
Phase IV List. The result was a description   of drugs with postmarketing      commitments
between   1972 and 1988, types of studies agreed to, and drug company compliance.4

SCOPE AND METHODOLOGY

We conducted our data collection and analysis between February and October            of

1995. All data is from FDA’s Center for Drugs in Rockville, MD.


We focused on all new molecular entities (NMEs) approved from January 1, 1987 to

December 31, 1993, including NMEs approved under the accelerated review process.

We limited our analysis to NMEs to focus on drugs most likely to have postmarketing

commitments.     New molecular entities are usually under 30 percent of all new drug

approvals, and they are prescription drugs which have never been marketed as a single

entity or as part of a combination product.  We selected 1993 as the cutoff year for

drug approval because it left 2 years--from 1993 to 1995--to show if companies took

action on their commitments.


We used the most recent version (1993) of the Phase IV List to determine which of

the NMEs had phase iv commitments.    Our identifications were verified by DDIR.


Since DDIR was planning to update the Phase IV List in 1995, it agreed to update the

status of the commitments in our study’s universe and send them to us in advance of

its completing the update for all its records, As a result, we were able to analyze the

status of commitments    as of August 1995. The status categories we created for the

analysis are similar to those used by DDIR in 1988 but are somewhat more

explanatory.   Both sets of status categories are in Appendix A.


We (1) quantified the number and type of postmarketing        studies for NMEs; (2)

identified the pharmacologic-therapeutic   classification of the NMEs; (3) categorized

each phase iv study according to its current status; and (4) when possible, determined

the length of time between a company’s submission of a study and FDA’s

determination   of closure. The tables and figure in this report are the result of our

analysis of data in FDAs Phase IV List and Management         Information System.


In addition to the above, we conducted 45 on-site interviews with FDA’s professional,

scientific, and technical staff in the areas of drug review, drug information resources,

document management,        and computer design. The respondents     included office

directors, division directors, drug reviewers, project management     staff (also known as

consumer safety officers), drug information officers, and technical information

specialists. Ninety-three percent of the respondents were in the review divisions and

DDIR. Each of those respondents received the interview questions in advance.                .


When we began our study there were 10 review divisions, each specializing in certain

drugs.5 We conducted interviews in 6 of the 10 review divisions, including the two





                                                3

that have used the accelerated approval process. The Center for Drugs has since
undergone a reorganization,   and the number of review divisions has changed.

Under separate cover, we gave the Center for Drugs our data analysis that serves as
an extension of DDIR’s 1988 analysis but which is not directly related to findings
herein.

Our study was conducted in accordance with the Qualiy Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                          4

                                                       FINDINGS


THE NUMBER OF NEW DRUGS WITH POSTMARKEmG                                                                    Co~~
IS INCREASING.

Percentage      of Drum with Postmarketin~                          Commitments

While the annual percentage of new molecular entities (NMEs) with commitments
varies, there has been an upward trend as shown in Figure A. In the 1970s, the
highest percentage of such drugs was 33 percent compared to a high of 70 percent                                                in
the 1990s.

       Figure A


                                                   Annual Percent of NMEs With
                                                 Phase IV Commitments, 1972-1993
             76-

             71-

             66-

             61-

             56-

             51-

             a-

             41-

             36-

             31

             26            -

             21

             16 lb                      I


              11)
 ,            1   1        I   1     t   I   1    I   1    1   1    1   !    I   ,    1    1     ,   1    I


                    72      74              76        78       80       82       64       86       88        90        92
                                                     Year of Approval



More than half           of the NMEs in our study period, 1987-1993, have postmarketing
commitments.             For these years, FDA approved a total of 169 NMEs including 2 under
the accelerated           approval process. Fifty-three percent, or 90 of the 169 drugs had
commitments.             Table 1 on the next page shows the percent by year.

There was a total of 385 commitments for the 90 drugs, and an average of 4
commitments per drug as shown in Table 2. Twenty-five of the 90 drugs had only one


                                                                        5
commitment each. Of the 385 commitments,                 35 were for the 2 NMEs approved     under
the accelerated process.

      Table 1


                   PHASE IV NMIZ.s*AS A PERCENTAGE OF TOTAL NMEs
                                        1987-1993
                               !
                     Year           Total NMEs       Phase IV NMEs
                               I                  I
                     1987                21             9 (43%)
                               I                  I
                     1988                20             6 (30%)
                     1989                   24                         12 (50%)
                     1990                   23                         12 (52%)
                     1991                   30                       21 (70%)
                     1992                   25                         13 (52%)
                     1993                   26                         17 (65%)
            TOTAL                       169                            90 (53%)
           ~Mti wtth phase w (postmarketmg) commitments

      Table 2


                    AVERAGE NUMBER OF PHASE IV COMMITMENTS
                               PER PHASE IV NME*
                                    1987-1993
            Year of               Number of          Number of Phase        Average Number
            Drug                Phase IV NMEs        IV Commitments         of Commitments
            Approval                                                           Per NME
            1987                      9                      37                   4
                            I                                           I

            1989                     12                      36                   3
                            1
            1990            I        12          I           44         14
            1991                     21                      96                   5
            1992                     13                      80                   6




Status of PostmarketinE     Commitments

The FDA data indicates that out of the 385 phase iv studies it asked companies to
conduct, 150 are currently in progress and 146 were completed and submitted to FDA.


                                                     6
In other words, 296 studies, or77percent   of thestudies,    areeither inprogress    or have

been submitted.  Thetable    in Appendti Bshowsthe      status ofcommitments      as of

August 1995 for all NMEs approved between 1987 and 1993, including NMEs

approved under the accelerated review process.


Fifty-seven percent or880f   the 150studies inprogress  are actually underway.   The

remaining 62 studies break out as follows. One study is perpetual (i.e., an ongoing

surveillance study); 11 were halted; and 50 were completed but a report has not yet

been submitted to FDA.


Of the 146 studies that were submitted to FDA FDA reviewed 40 and found 39

acceptable and only 1 not acceptable.    It appears to have taken FDA an average of 16

months to determine that 25 studies were acceptable.      Dates that would have allowed

us to calculate an average time for all 39 studies are missing from the Phase IV List.

Nine of the 39 studies FDA found acceptable were studies for accelerated NMEs.

Five of these nine studies had determinations    within 11 days to 21 months after the

date of the study’s submission.G


The FDA data does not indicate whether 106 out of the 146 submitted studies are

acceptable or not. Dates in the Phase IV Lz3t indicate that 30 of the 106 studies have

been without a determination  for 2 to 7-1/2 years. Dates for the remaining 76 studies

are missing. One study for an accelerated NME has not had a determination       for

almost 3 years.7


Thirty-five studies out of the total 385 have not yet begun, either because the company

(a) is postponing action until FDA reviews a supplement application, (b) did not agree

to conduct the study, or (c) plans to start the study in the future.


The FDA released companies from 23 of the 385 commitments.           Twelve of these

released commitments were for drugs that are not marketed.       For the remaining 11

studies in this status catego~, either (a) the studies were not feasible, (b) FDA’s

questions were answered by other studies, or (c) the reason for release was not clearly

explained in the Phase IV List,


There was no status information at FDA for 31 (eight percent)       of the 385 studies.   All

31 studies were for drugs approved from 1990 through 1993.


THERE ARE NO FORMAL STANDARDS AND PROCEDURES FOR
MONITORING OR ESTABLISHING WHETHER A COMMITMENT IS MET.

Review Divisions

There are no formal Centerwide standards and procedures for monitoring
postmarketing studies. Monitoring in the review divisions is up to individuals.
Reviewers request postmarketing  studies and review company submissions in their
normal scope of work which is reviewing investigational new drug applications, new
drug applications, and efficacy and labeling supplements. However, following-up on a

commitment and reviewing a phase iv submission are done as time allows and are

dependent on the commitment’s relative importance.


There is no formal mechanism for establishing whether a commitment is met and then

taking the commitment out of the pending section of the Phase IV List. There are

indications that in some cases someone has determined that phase iv studies were

acceptable and the commitments were met. For example, we found such

determinations   for 39 of the 146 submitted studies. During our inteniews, most

review division respondents   said the reviewer would, at least initially, decide whether a

commitment was met. However, no one has the formal responsibility of determining

and recording whether or not a company’s phase iv submission meets the commitment.

This may explain why data in the Phase IV List indicates that 106 submitted studies for

NMEs approved from 1987 through 1993 are still without determinations.


The review divisions have a procedure for advising drug companies of their

commitments    around the time the new drug receives market approval.   But, they do

not have a procedure for notifying a company when and whether their phase iv

submissions have been reviewed and accepted as fulfillment of the commitments.

While individual reviewers may relay this to drug companies, the records do not

indicate that such notification occurs.


Under the current monitoring which relies on individuals, reviewers may or may not

have ways of reminding themselves to contact a company about a commitment.

Reviewers either rely on reminders from project management        staff, have their own

tickler system, or respond when a question arises. But reviewers and review division

directors alike believe the important studies are memorable and most companies meet

their commitments.     Some respondents  said relying on individuals within an informal

system could be a problem.    They cited that a reviewer could leave the division and

remaining staff would not be aware of pending commitments.


While some review division respondents believe there should be guidelines regarding

phase iv monitoring, a greater number feel the current way things are done is good

enough given limited resources.   Most of these respondents feel it is unnecessary to

have formal procedures because in most cases it is extremely difficult for FDA to

enforce compliance.   They feel once the drug is approved, it is up to the company to

take the next step regarding their commitment.


Phase IV List

While the Phase IV List is a tool the review divisions could use as a reminder of which
commitments    are pending, most reviewers and division directors were not aware of its
existence. The office directors and project management     staff knew of the Phase IV
List but they did not make full use of it.




                                             8

The informality of phase iv tracking in the review divisions hampers DDIR in its
ability to collect complete and timely phase iv data for the Centerwide F%ase IV L&.
All sources of postmarketing   data are located in review division documents.     But
because documents containing phase iv information are so numerous and are not
indexed, identi&ing them is very time-consuming.     In addition, there is no way for the
tracking staff to be sure they have located all the relevant documents.    It is only when
documents indicate that a phase iv study fulfilled the commitment for a particular drug
that DDIR removes it from the pending section of the Phase IV L&.

Currently, there is no formal mechanism by which DDIR can receive feedback from
the review divisions about the Phase IV List. Respondents in DDIR say updating the
Phase IVList requires a great deal of work and they hope their product is useful. But
without feedback from end-users they do not know if the Phase IV List is addressing
user needs.

WHILE THE Phase lVL& CONTAINS IMPORTANT INFORMATION, IT IS NOT
A FULLY EFFECTIVE MANAGEMENT TOOL IN ITS CURRENT FORM.

Important    Information

The Phase IV LA is the only instrument containing postmarketing        commitment data
on every drug (including NMEs) approved by the Center for Drugs. The Phase IV
List is made up of one record for each drug with commitments, and the records are
grouped according to the review division handling the drug. A record contains
identifiers for the drug, the drug’s approval date, a narrative description of the
commitments,     a narrative description of the status, the name and date of the sources
of information, and the name of a contact person in the review division. We were
able to use the Phase IV List for most of our analyses.

Timeliness   and Completeness

The Phase IV List is not updated     on a regular or frequent basis, and certain data
elements are not captured consistently.     At the time of our interviews in mid-1995, the
Phase IV List was already 2 years old. Many of the dates that would give management
time frames for company or FDA activity were missing. Also, drugs approved under
the accelerated review process were not identified as such. However, the timeliness
and completeness   of data is affected by the lack of standards and procedures for
monitoring phase iv studies in the review divisions. Without procedures to keep
abreast of commitments    and to record that activity in a standard way, the same phase
iv data cannot be captured consistently Centerwide.

Format

The Phase IV List does not contain summarizations  of the numerous records. Two
factors can explain the absence of summaries.  One factor is that extended narratives
are used in each record to describe a commitment and its status. The narrative


                                             9
format makes it hard to see patterns or anomalies in the types of studies requested or
in company compliance.       While an individual can manually go through each record in
the Phase IV List, create categories, and then count up items in the categories (as we
did), this is very time-consuming.   Furthermore,   narratives are subject to interpretation
and categorizing them for analysis is a matter of individual judgment.

The second factor is the type of computer software in which the information is stored.
Currently, the information is in a word-processing  program which cannot automatically
summarize data. Given the nature of the data, the need for quick turn-around
reporting, and the need for ease of data entry and changes, we believe more
convenient software, such as a relational database, may be more appropriate.

THE FDA IS TAKING SOME STEPS TO IMPROVE THE TRACKING OF
COMMITMENTS.
In late 1994, the Center for Drugs established a work group to look at tracking
problems.    As of September    1995 at least two improvements  were being implemented.
The first is that postmarketing   commitments will be formally listed in a standard letter
to the company. This will reduce the number of documents DDIR staff have to
research in order to identify a new commitment.      The second improvement     is that the
Phase IV List will be transferred from its current word-processing program to a
database program.

The Center plans to continue its efforts to improve the tracking system. One goal is
to have the Phase IV List on-line for greater accessibility. Another is to make
company submissions more easily identifiable for tracking purposes.




                                             10

                   RECOMMENDATIONS

We recognize that FDA has limited resources and its priority is the review of
premarketing    drug studies. This is especially true with the shorter time frames FDA
has to review premarketing     studies and new drug applications under the Prescription
Drug User Fee Act of 1992 (P.L. 102-571). Wealsorecognize           that the Center for
Drugs is interested in improving the data management       system for postmarketing
commitments     and has started to do so. Since FDA work groups are currently meeting
to improve tracking, this is an opportune time to make data collection less labor
intensive and to create a system that meets the informational     needs of senior
management     in the Center for Drugs.

As our report indicates, FDA is requesting postmarketing    studies for an increasing
number of new drugs, and most of the commitments      are long-term in nature.
Furthermore,  for drugs approved under the accelerated review process, FDA can
move to withdraw the drugs from the market if the postmarketing      studies are not
completed with due diligence.

Until the monitoring system is made less dependent on individual memory, FDA risks
losing track of the commitments.   Unless time frames are tracked and monitored,
FDA cannot uniformly determine diligence on the part of drug companies.       Until the
commitments    are monitored and tracked systematically, FDA is not availing itself of a
management    tool with which to assess the appropriateness of its requests and plan for
the future.

Lastly, FDA’s requests for postmarketing      studies put added responsibilities on the
drug companies.    Therefore, it is reasonable to expect FDA to determine whether or
not the studies fulfill the commitments and to noti~ the companies of the
determination.

We recommend     that FDA:

  �	   estabtih standkrds, procedures, or guidelines for individuals responsible for canying
       out trwnito~g and tracki%gobjectivm; and

  F	   establikh accountability for monitoring tracking and bringing com”tments      to
       cihsure.

Below are some ideas for FDA to consider      in order to streamline   data management:

  .�   Assign authority to specific personnel for carrying out management     objectives.
       Establish a coordinator with authority to (1) represent all offices involved in
       monitoring, tracking, and bringing commitments to closure; and (2) ensure that
       there is a quality control system for the commitments   database.


                                             11
  .�   Reduce thenumber       ofdocuments  that have to beresearched   in order to
       identify the status of commitments;  and use standard notations on these
       documents to signify how each document affects the status of the commitment.

  .�   Establish descriptive   categories   for (1) types of studies requested   and (2) status
       of commitments.

  .�   Put the database of postmarketing   commitments   on-line in the review divisions
       and allow authorized individuals to update records as soon as an action occurs
       or a determination  is made.

FDA COMMENTS

The FDA agrees with this report’s findings and recommendations.    A draft directive
that establishes procedures and provides guidance is undergoing review within CDER
is expected to be finalized by the end of June 1996. (Appendix C contains FDA’s
comments in full.)




                                                 4.-I
                                                 1A
                                        ENDNOTES



1.    Accelerated approvals are possible in only two situations:

              (1)	   When approval can be based on a drug’s effect on a surrogate endpoint
                     that is reasonably likely to predict clinical benefit, or on a drug’s effect
                     on a clinical endpoint other than survival or irreversible morbidity.
                     After approval, the a~plicant would be required to complete adequate
                     and well-controlled clinical studies alreadv underwav at the time of
                     aumoval, to confirm the predictive value of the surro~ate end~oint or
                     other indicator. (21 CFR 314.510)

              (2)	   When FDA determines that an effective but highly toxic drug can be
                     used safely only if distribution or use is modified or restricted. (21 CFR
                     314.520)

2.    Closure is defined by FDA’s Division of Drug Information Resources as:

              (1)	   the drug product was not marketed or it was withdrawn from the market
                     (closure would be void if the drug were re-marketed);

              (2)    the drug company was released from all phase iv commitments by FDA;

              (3)	   the research was terminated for reasons mutually agreed to by the drug
                     company and FDA or

              (4)�   the research was completed and accepted by FDA as scientifically valid
                     and in fulfillment of the commitment(s).

3.	   Definition of new molecular entity: The active moiety (component or molecule) has
      not previously been approved or marketed in the United States by any drug
      manufacturer either as a single entity or as part of a combination product.

4.	   The analysis was performed by staff in the Division of Drug Information Resources,
      Office of Management, Center for Drug Evaluation and Research. It was used in
      papers presented at (1) the 23rd Annual Meeting of the U.S. Public Health Service
      Professional Association in Scottsdale, AZ, May 1988, and (2) the 25th Annual
      Meeting of the Drug Information Association in Boston, ~      June 1989.

5.�   Review Divisions (as of May 1995): (1) Cardio-Renal, (2) Neuropharmacological, (3)
      Oncology and Pulmonary, (4) Medical Imaging and Surgical-Dental, (5)
      Gastrointestinal and Coagulation, (6) Metabolism and Endocrine, (7) Anti-infective, (8)
      Anti-Viral, (9) Topical Drug Products, and (10) Pilot Drug Evaluation Staff.

6.	   We used the following method to calculate the time it took FDA to review and
      determine that studies were acceptable: Out of the 39 studies found acceptable, 25
      had submission and determination dates. We calculated the difference between the
      dates. The time ranged from 5 days to nearly 7 years, for an average of a little over 16
      months.


                                               13
7.	   We used the following method to calculate the time that studies have been without a
      determination: Out of 106 studies without a determination, 30 had submission dates.
      We calculated the difference between those dates and August 31, 1995 which was when
      the studies’ status was most recently updated. The time periods for the 30 studies
      ranged from 2 to 7-1/2 years.




                                            14

                                    APPENDIX                   A


  CATEGORIES FOR THE STATUS OF POSTMARKETING CO~NTS

On the left are the 15 categories we established in order to analyze status information
in FDAs Phase IV Postapproval Research List. On the right are the eight categories
established by FDA in 1988.

See Appendix   B for the number        of commitments    in each status category        as of August
1995.


               OIG -1995                                FDA -1988

               StudyNot Begun                           A. Study not begun or status could
               1.1Will begin in the future              not be determined
               1.2 Company did not agree to
               conduct study                            B. Study in progress
               1.3 Company awaiting approval
               of a supplement application              C. Study is perpetual

               study
                   inProgrW                             D. Study submitted and FDA
               2.1 Underway                             determined commitment is met
               2.2 Completed but not yet
               submitted to FDA                         E. Study submitted and was
               2.3 Halted                               rejected by FDA
               2.4 Perpetual
                                                        F. Study submitted and FDA has not
               Study Submittedto FDA
                   determined if commitment is met
               3.1 Accepted by FDA

               3.2 Not accepted by FDA
                 G. Company released from
               3.3 No determination made
               commitment
               by FDA

                                                        H. Study not completed due to drug
               Releasedfrom Commitment
                 not being marketed
               4.1 Drug not marketed

               4.2 Questions answered by

               other studies

               4.3 Reason unclear

               4.4 Study not feasible


               status
                   unknown
               5.1 No information




                                               A-1

                                APPENDIX                   B


              NUMBER OF PHASE lV COMMHMENR                IN EACH STATUS
   STATUS AS OF AUGUST 1995            \         YEAR OF DRUG APPROVAL     II
StudyNot Begun                         I ’87
1.1     Will begin in future           11
1.2�    Company did not agree to            3
        conduct study
1.3     Company awaiting approval of        O
        supplement


study in Progress                      I
2.1     Underway
2.2�    Completed but not yet
        submitted to FDA               I    1

2.3     Halted                         10
2.4     Perpetual                      I    o


Study Submitted                        I
3.1     Accepted by FDA                \    10
3.2     Not accepted by FDA            11




4.1     Drug not marketed              18
4.2�    Question answered by other           1
        studies
4.3     Reason unclear                      o
                                       1
4.4     Study not feasible             10


status unknown                         I




                                                  B-1

          APPENDIX             C


COMMENTS FROM THE FOOD AND DRUG ADMINISTRATION




                      c-1
 *4+’     %
        * 5W’OC,* ‘
                                                                                             PubIii HealttI Service


         $
   *
::-Y                  DEPARTMENT OF HliiMTH & HUMAN SERVICES                                 Foodand Drug Administradon
  z
   %
     %
      ‘++.,w
        2
                                                                                             Memorandum
               Date
                      .~     28D%

               From
                      Deputy Commissioner    for Management and Systems (Acting)

            Subject   Food and Drug Administration’s (FDA) Comments on the OffIce of Inspector
                      General’s (OIG) Draft Report, “Postmarketing Studies of Prescription Drugs, ”
            To
                       (OEI-03-94-O0760), -- ACTION

                      Deputy Inspector General for Evaluation and Inspections



                      We reviewed the referenced draft report and prepared the attached comments.

                      The FDA’s Center for Drug Evaluation and Research has agreed with the report’s
                      recommendation and is beginning to implement it.

                      If your staff has any questions, please have them contact Jim Dillon on (301) 443-6392.




                       Attachment




                                                             [C-2]
 COM MFNTS OF THF FOO17 AND DRUG A13MIN ISTRATION (FDA) ON THF OF FICF
                                                s!
  OF INSPECTOR GFNFRAI (OICJ) DRAF T RFPORT,       OSTMARKF TING STUDIFS OF
           PRFSCRIP TION DRUGS. ” OFI-03-94-00760,   FFBRUAR Y 1996



General Commen&


We appreciate the opportunity      to review and comment on the referenced OIG draft report.


The FDA’s Center for Drug Evaluation and Research (CDER) agrees with the report’s
findings and recommendation.    CDER wishes to express its gratitude to the OIG evaluators
for considering their comments and suggestions on the working draft report.



OIG RecQmmendatior’1


We recommend that FDA establish standards, procedures, or guidelines for individuals
responsible for carrying out monitoring and tracking objectives; and, establish
accountability   for monitoring,   tracking, and bringing commitments   to closure.


FDA comment

FDA concurs. CDER has formed a working group that is canying out the intent of the
recommendation.    This working group has drafted a directive that establishes procedures
and provides guidance for resolving various issues. The draft directive tentatively entitled,
“Tracking Phase 4 Commitments,” is undergoing review within CDER and should be
finalized by end of June. CDER expects implementation shortly thereafter. The directive
will become part of the Manual of Policies and Procedures and will be available for use by
all CDER employees.




                                              [C-3]

